audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing
Cash and Property by the Jefferson Parish Sheriff's Office
GR-80-98-006	
December 19, 1997
Office of the Inspector General

AUDIT RESULTS
The United States Department of Justice, Office of the Inspector General has completed an audit of the use of equitable sharing revenues by the Jefferson Parish, Louisiana, Sheriff's Office.  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.  The objective of our audit was to determine if the Sheriff's Office was complying with pertinent guidelines governing the use of equitably shared forfeited assets.  The audit included a review of current equitable sharing activities at the Sheriff's Office.

	Generally, equitable sharing revenues were accounted for accurately in financial records.  However, our audit did disclose the following conditions:

Federal equitable sharing funds were commingled with state equitable sharing funds.

	The Annual Certification Report was not accurate.